No. 20- 297
In the

Supreme Court of the United States
TransUnion LLC,
Petitioner,
v.
Sergio L. Ramirez,
Respondent.
On Writ of Certiorari to the United States
Court of A ppeals for the Ninth Circuit

BRIEF OF PROFESSIONAL BACKGROUND
SCREENING ASSOCIATION AS AMICUS
CURIAE IN SUPPORT OF PETITIONER
Pamela Q. Devata
Counsel of Record
John W. Drury
Seyfarth Shaw LLP
233 South Wacker Drive,
Suite 8000
Chicago, Illinois 60606
(312) 460-5000
pdevata@seyfarth.com
Counsel for Amicus Curiae
Professional Background
Screening Association
301538

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Whether either Article III or Federal Rule of Civil
Procedure 23 permits a damages class action where the
vast majority of the class suffered no actual injury, let
alone an injury anything like what the class representative
suffered.

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . iv
IDENTITY AND INTEREST OF AMICUS
CURIAE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

The Ninth Circuit’s Decision Has The Potential
To Further Open The Floodgates To A
Multitude Of New “No Injury” Class Actions  . . 4
A. The FCRA’s Statutory Framework
Demonstrates The Importance Of
Rigorous Enforcement of Article III’s
“Concrete Harm” Requirement . . . . . . . . . . 6
B. The Ninth Circuit’s Decision Likely Will
Result In A Marked Increase In FCRA
Class Actions Where Plaintiffs and
Class Members Suffered No Concrete
Harm . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

iii
Table of Contents
Page
1.

Section 1681b(b)(1) of the FCRA,
Which Requires A Certification
or Promise By an Employer to a
Consumer Reporting Agency  . . . . . . . 11

2. Section 1681e(b) of the FCRA, Which
Requires a CRA to Have Reasonable
Procedures to Assure Maximum
Possible Accuracy . . . . . . . . . . . . . . . . . 14
II. The Ninth Circuit’s Decision Exacerbates
Ongoing A nd Unjustif ied Harm For
Businesses and Consumers . . . . . . . . . . . . . . . . . 18
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

iv
TABLE OF CITED AUTHORITIES
Page
Cases
Auer v. TransUnion, LLC, et al.,
902 F.3d 873 (8th Cir. 2018) . . . . . . . . . . . . . . . . . . . . 13
Berther v. TSYS Total Debt Mgt.,
No. 06-cv-293, 2007 WL 1795472 (E.D. Wis.
June 19, 2007)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Collins v. Experian Info. Sols., Inc.,
775 F.3d 1330 (11th Cir. 2015)  . . . . . . . . . . . . . . . . 16-17
EEOC v. Freeman,
961 F. Supp. 2d 783 (D. Md. 2013) . . . . . . . . . . . . . . . 18
Frazier v.
First Advantage Background Servs. Corp.,
No. 17-cv-30, 2018 WL 4568612 (E.D. Va.
Sept. 24, 2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Gilberg v. Cal. Check Cashing Stores, LLC,
913 F.3d 1169 (9th Cir. 2019)  . . . . . . . . . . . . . . . . . . . . 7
Lujan v. Defenders of Wildlife,
504 U.S. 555 (1992) . . . . . . . . . . . . . . . . . . . . . . . . 12, 17
NASA v. Nelson,
562 U.S. 134 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Sarver v. Experian Info. Sols.,
390 F.3d 969 (7th Cir. 2004) . . . . . . . . . . . . . . . . . . . . 15

v
Cited Authorities
Page
Spokeo, Inc. v. Robins,
136 S. Ct. 1540 (2016)  . . . . . . . . . . . . . . . . . . . . . passim
Stillmock v. Weis Mkts., Inc.,
385 F. App’x. 267 (4th Cir. 2010)  . . . . . . . . . . . . . . . . . 9
Sullivan v. Greenwood Credit Union,
520 F.3d 70 (1st Cir. 2008)  . . . . . . . . . . . . . . . . . . . . . . 9
Syed v. M-I, LLC,
853 F.3d 492 (9th Cir. 2017) . . . . . . . . . . . . . . . . . 5, 6, 7
Syed v. M-I, LLC,
No. 14-cv-742, 2014 WL 5426862 (E.D. Cal.
Oct. 23, 2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  13, 14
Walker v. Fred Meyer, Inc.,
953 F.3d 1082 (9th Cir. 2020) . . . . . . . . . . . . . . . . . . . . 7
Wantz v. Experian Info. Sols.,
386 F.3d 829 (7th Cir. 2004) . . . . . . . . . . . . . . . . . . . . 16
Washington v. CSC Credit Servs., Inc.,
199 F.3d 263 (5th Cir. 2000) . . . . . . . . . . . . . . . . . . . . 16
Wright v. Zabarkes,
No. 07-cv-7913, 2008 WL 872296 (S.D.N.Y.
April 2, 2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17

vi
Cited Authorities
Page
Statutes and Other Authorities
U.S. Const. Art. III . . . . . . . . . . . . . . . . . . . . . . . . . passim
15 U.S.C. § 1640(a)(2)(B)  . . . . . . . . . . . . . . . . . . . . . . . . . . 8
15 U.S.C. § 1681a(d)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
15 U.S.C. § 1681a(f)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
15 U.S.C. § 1681a(g) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
15 U.S.C. § 1681b(b)(1) . . . . . . . . . . . . . . . . . . . . . . . passim
15 U.S.C. § 1681b(b)(2) . . . . . . . . . . . . . . . . . . . . . . . passim
15 U.S.C. § 1681b(b)(3) . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
15 U.S.C. § 1681c . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10, 22
15 U.S.C. § 1681e(b) . . . . . . . . . . . . . . . . . . . . . . . . . passim
15 U.S.C. § 1681g  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
15 U.S.C. § 1681i . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
15 U.S.C. § 1681n(a)(1)(A)  . . . . . . . . . . . . . . . . . . . . . . . . . 8
15 U.S.C. § 1681n(a)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

vii
Cited Authorities
Page
15 U.S.C. § 1681n(a)(3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
15 U.S.C. § 1681p(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
15 U.S.C. § 1692k(a)(2)(B)  . . . . . . . . . . . . . . . . . . . . . . . . . 8
15 U.S.C. § 1692k(b)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Consumer Financial Protection Bureau, Market
Snapshot: Background Screening Reports
(October 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Fed. Civ. Proc. R. 23  . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 4
Sup. Ct. Rule 37.6 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Taskforce on Federal Consumer Financial Law
Report, Volume II (Jan. 2021) . . . . . . . . . . . . . . . . . . . 8
U.S. Ch amber of Co mm erce , A G uid e to
Choosing the Best Background Check Services
(Feb. 25, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

1
IDENTITY AND INTEREST OF AMICUS CURIAE1
The Professional Background Screening Association
(“PBSA”) is an international trade association of over
850 member companies that provide employment, credit,
insurance, and tenant background screening and related
services to virtually every industry around the globe.
The consumer reports prepared by PBSA’s background
screening members are used by employers, property
managers, credit lenders, and volunteer organizations
every day to ensure that communities are safe for all who
work, reside, or visit there.
PBSA members range from large background
screening companies to individually-owned businesses,
each of which must comply with applicable laws, including
the Fair Credit Reporting Act, 15 U.S.C. § 1681 et seq.
(“FCRA”). PBSA members include companies that operate
as “consumer reporting agencies” under the FCRA.
Among other goals, PBSA members seek to promote
the accurate and timely reporting of a variety of consumerrelated information for the purpose of empowering
employment, housing, insurance, credit and other financial
opportunities to individuals across the country. Consistent
with those purposes, PBSA’s members obtain consumer
1. Pursuant to Rule 37.6, PBSA affirms that no counsel for a
party authored this brief in whole or in part, and no counsel or party
made a monetary contribution intended to fund the preparation or
submission of this brief. In addition, no person or entity other than
amicus, its members, or its counsel made a monetary contribution
intended to fund the preparation or submission of this brief. All
parties filed letters granting consent to the filing of merits-stage
amicus briefs.

2
information from thousands of different courts and other
sources across the country and, in compliance with the
FCRA and other laws, maintain a high volume of consumer
information on a daily basis.
Many of PBSA’s members are or may become
defendants in putative class actions brought under the
FCRA and other laws. Many of the FCRA’s requirements
are highly technical and procedural in nature, yet have
the potential to impact thousands to tens of millions items
of consumer information maintained by PBSA members.
PBSA therefore has a significant interest in ensuring
that courts rigorously and consistently enforce Article III
standing requirements and Rule 23 of the Federal Rules
of Civil Procedure.
PBSA respectfully submits that this brief will aid the
Court by providing its perspective on important questions
raised by the Ninth Circuit’s decision. PBSA’s brief is not
intended to address every aspect of the issues on appeal.
The matters addressed in this brief, however, are relevant
to the disposition of this appeal because the brief provides
additional context, particularly with respect to the
potentially widespread and detrimental consequences of
allowing class members to recover statutory and punitive
damages where class members have not suffered concrete
harm, have not sustained any actual damages, or have not
even been subject to a consumer report being procured
about them. The issues raised on this appeal are significant
not just to the parties in this case, but to all businesses
that may be affected by class action litigation where there
is no injury to most or all putative class members.

3
SUMMARY OF ARGUMENT
Amicus agrees with Petitioner that the vast majority
of class members in this appeal fail to satisfy Article
III standing because they did not suffer the requisite
constitutional “concrete harm,” as clarified by this Court
in Spokeo, Inc. v. Robins, 136 S.Ct. 1540, 1548-50 (2016).
The Ninth Circuit’s holding runs counter to Spokeo,
invites further class action abuses, and encourages (in
many cases, compels) unfair in terrorem settlements to
companies facing potentially ruinous judgments – most, if
not all, of which would be paid, like here, to class counsel
and to class members who did not suffer any actual injury
or damages whatsoever.
Amicus’ members are particularly susceptible to
such “no injury” class actions. This is because the FCRA
imposes a number of hyper-technical and procedural
requirements where an alleged violation rarely (and in
some cases never) results in an injury to an individual
consumer, much less to an entire class. Many of these
potential FCRA claims involve fact patterns even further
divorced from any potential “harm” to the consumer
as compared to the claims and factual record at issue
on this appeal. Yet, after the Ninth Circuit’s decision,
a myriad of other “no injury” class claims may fall into
the web of extraconstitutional standing endorsed by the
Ninth Circuit. The FCRA creates a bounty for plaintiff’s
attorneys to bring these “no injury” class actions by
imposing statutory damages up to $1,000 per consumer,
attorney’s fees to prevailing plaintiffs, and possible
punitive damages.

4
The inevitable impact of the Ninth Circuit’s decision
is a flood of new “no injury” class actions – brought under
the FCRA and other statutes with similar overly technical
requirements unlikely to cause any constitutionally
recognized concrete harm to most or all purported class
members. That outcome has significant ramifications for
the background screening industry and for consumers,
employers, landlords, credit lenders, and others that
obtain or use consumer report information. By allowing
Respondent to dispense with the requisite Article III
standing requirements, the Ninth Circuit has—once
again—provided an unwarranted incentive for the
plaintiff’s bar and future litigants to attempt to turn
garden-variety single-plaintiff individual actions into
class actions encompassing wide swaths of consumers
suffering no harm or injury whatsoever. That outcome
is unsupported by Rule 23, the FCRA, and this Court’s
precedent.
ARGUMENT
I.

The Ninth Circuit’s Decision Has The Potential To
Further Open The Floodgates To A Multitude Of
New “No Injury” Class Actions.

In Spokeo, this Court made clear, within the specific
context of a FCRA claim, that a plaintiff cannot “allege
a bare procedural violation, divorced from any concrete
harm, and satisfy the injury-in-fact requirement” of
Article III. 136 S.Ct. at 1549. Reaffirming prior Article
III standing precedent, this Court held that “[a] ‘concrete’
injury must be ‘de facto’; that is, it must actually exist.”
Id. at 1548 (emphasis added). In other words, the injury
at issue must be “real,” and not merely “abstract” or
speculative. Id.

5
Viewing the FCRA under this analytical framework,
this Court recognized that, while Congress “sought to
curb the dissemination of false information by adopting
procedures designed to decrease that risk . . .[,] [a
plaintiff] cannot satisfy the demands of Article III by
alleging a bare procedural violation” of Section 1681e(b)
of the FCRA, or any other section of the statute. 136 S.Ct.
at 1550. That is because “[a] violation of one of the FCRA’s
procedural requirements may result in no harm,” and thus
not confer standing on any unharmed plaintiff or putative
class member. Id.
The Ninth Circuit’s decision unjustifiably subverts
this Court’s articulation of “concrete harm” to allow
class members suffering no “real” or “actually exist[ing]
harm” whatsoever to recover collectively tens of millions
of dollars in damages. Instead of applying this Court’s
standard for “concrete harm,” the Ninth Circuit created
an extraconstitutional class action standing rule that
allows class members to recover damages based on
nothing more than the allegation of a hypothetical harm
that could have occurred, but never did.
More troubling, this appeal does not represent an
outlier in the Ninth Circuit. After Spokeo, the Ninth Circuit
has chipped away the “concrete harm” requirement to
allow hyper-technical, no-harm class claims to proceed –
including in cases brought under the FCRA. See, e.g., Syed
v. M-I, LLC, 853 F.3d 492, 499 (9th Cir. 2017) (concluding
that a plaintiff’s mere allegation of “confusion” regarding
a background check disclosure form conferred standing
for claim brought under 15 U.S.C. § 1681b(b)(2)).

6
As this appeal, Syed, and other cases illustrate,
Spokeo and the “concrete harm” requirement have been
reduced almost to the point of a nullity in the Ninth
Circuit. This appeal presents but one erroneous elevation
of speculation into standing. The importance of each
and every class member satisfying the “concrete harm”
requirement extends well beyond the specific claims
and fact pattern presented in this appeal. To prevent
class action abuse (especially for FCRA claims), amicus
respectfully submits that this Court should provide firm
guideposts for appellate courts that fail to follow the path
laid down in Spokeo, and continue to find mere speculation
to rise to the level of “real,” “de facto, “existing,” and
actual “concrete injury.”
A.

T h e F C R A’s S t a t u t o r y F r a m e w o r k
Demonstrates The Importance Of Rigorous
Enforcement of Article III’s “Concrete Harm”
Requirement.

It is no coincidence that, in just the last five years, this
Court has heard two appeals regarding whether a FCRA
plaintiff and class have standing under Article III. The
FCRA, unfortunately, provides the perfect mechanism for
the plaintiff’s bar to attempt to extract large settlements
under the threat of a “no injury” class action. This is the
result of three primary factors: (i) the numerous exacting
and specific technical requirements imposed by the
FCRA; (ii) the uncapped class action damages available
to prevailing plaintiffs; and (iii) the high volume nature
of background screening.
First, it is well recognized that the FCRA imposes
many largely procedural requirements, the violation of

7
which rarely (if ever) results in any harm to the consumer.
One salient example can be found in Section 1681b(b)(2) of
the FCRA, which requires users of employment-purposed
consumer reports to provide a background check disclosure
to consumers before procuring a consumer report. See 15
U.S.C. § 1681b(b)(2). This required disclosure must be in
a document “consisting solely of the disclosure.” Id. In
a series of cases postdating Spokeo, the Ninth Circuit
has increasingly narrowed what may be included in this
“stand-alone” disclosure document, while at the same time
holding that a bare allegation of “confusion” regarding the
document is sufficient for Article III standing. See, e.g.,
Syed, 853 F.3d at 499-500 (holding inclusion of liability
release in disclosure violates statute and that plaintiff’s
alleged “confusion” over disclosure qualified as concrete
harm); Gilberg v. Cal. Check Cashing Stores, LLC, 913
F.3d 1169, 1175 (9th Cir. 2019) (holding inclusion of state
law disclosures was extraneous to FCRA disclosure);
Walker v. Fred Meyer, Inc., 953 F.3d 1082, 1090-91
(9th Cir. 2020) (holding inclusion of language advising
consumers how to obtain and inspect information about
their consumer report violated the stand-alone disclosure
requirement).
What by statute is a procedural obligation to disclose
to a consumer that a background check may be conducted
about him or her has now become a tool for extracting
unfair settlements, with the plaintiff’s bar bringing
numerous claims alleging increasingly tenuous types
of supposed “extraneous” or “unclear” information on
the disclosure, challenging everything from misplaced
punctuation to an alleged extra word or phrase. See
Gilberg, 913 F.3d at 1175; Walker, 953 F.3d at 109-91. In
these cases, the empty-vessel class representatives almost

8
always understand they were consenting to a background
check, and in most cases were hired by the defendant
following the background check. Their “informational”
harm is a mere fiction that has resulted in millions of
settlement and litigation dollars being spent by employers.
As discussed infra Part I.B.1-2, this is just one of the many
no-injury claims under the FCRA.
Second, the FCRA imposes potentially staggering
damages where liability is found. Where a willful violation
is established, the FCRA mandates an award of statutory
damages between $100 and $1,000 per consumer. 15 U.S.C.
§ 1681n(a)(1)(A). The FCRA also mandates an award of
attorney’s fees and costs to a prevailing plaintiff’s counsel.
15 U.S.C. § 1681n(a)(3). In addition, uncapped punitive
damages also are available, and as this appeal illustrates,
can be awarded even to class members who did not suffer
an actual injury. 15 U.S.C. § 1681n(a)(2). Moreover, unlike
other consumer protection statutes, the FCRA does not
impose any limits on monetary awards in class actions. 2
Tellingly, just last month, the Consumer Financial
Protection Bureau (CFPB) Taskforce recommended that
“Congress should adopt class action damages limitations
for FCRA, to bring the FCRA civil liability provision in
line with similar laws.” Taskforce on Federal Consumer
Financial Law Report, Volume II at 26 (Jan. 2021). 3
2. In contrast, the Truth in Lending Act, 15 U.S.C. § 1640(a)(2)
(B), the Equal Credit Opportunity Act, 15 U.S.C. § 1691e(b), the Fair
Debt Collection Practices Act, 15 U.S.C. § 1692k(a)(2)(B) and other
similar statutes limit class action awards to the lesser of $500,000
or $1 million, or 1 percent of the defendant’s net worth.
3 . Ava i l able at ht t p s: //f i le s .con su mer f i n a nc e .gov/f /
documents/cfpb_taskforce-federal-consumer-financial-law_reportvolume-2_2021-01.pdf (all websites last accessed February 5, 2021).

9
Even setting aside large six-figure (and higher)
attorney fee awards and unlimited punitive damages, the
mandate for statutory damages alone can be ruinous to
amicus’ members. Other consumer protection statutes
provide guidance on the appropriate measure of statutory
damages in light of the violation at issue. See, e.g., 15 U.S.C.
§ 1692k(b)(1) (FDCPA statutory damages should consider,
among other factors, the “nature” and “frequency” of
the defendant’s noncompliance with the statute, and
whether noncompliance was “intentional”). The FCRA,
however, reserves the amount of statutory damages to the
fact-finder, who is free to award anywhere from $100 to
$1,000 per consumer – regardless of whether the violation
was intentional, whether it was technical in nature, or
whether it affected substantive rights and caused real
harm. See Sullivan v. Greenwood Credit Union, 520 F.3d
70, 74 (1st Cir. 2008) (recognizing court’s discretion in
selecting amount of FCRA statutory damages); Stillmock
v. Weis Mkts., Inc., 385 F. App’x. 267, 277 (4th Cir. 2010)
(“The [FCRA] does not specify what factors a jury
should consider when selecting” the amount of statutory
damages.). This lack of clarity invites juries, like here, to
award at or near the $1,000 statutory damages maximum,
which increases amicus’ members’ exposure exponentially
for even hyper-technical violations resulting in no actual
injury to a consumer class.
Third, amicus’ members operate in a high volume
industry. Many of amicus’ members prepare hundreds
of thousands to millions of consumer reports per year,
and retain an even higher volume of consumer data that
does not appear in consumer reports. Amicus’ members
often obtain and store large quantities of criminal and
other public record information, much of which never is

10
communicated to a third party because of the limits on
reporting such information to third parties in sections
of the FCRA such as Section 1681c and Section 1681e(b).
As a whole, the background screening industry prepares
over 100 million consumer reports per year. By their
very nature, the FCRA’s numerous obligations apply to
voluminous amounts and types of consumer information.
If a plaintiff challenges a particular practice of an
industry member on a class-wide basis, the putative class
claim could be on behalf of thousands or even millions of
consumers. The FCRA’s two- and five-year limitations
periods significantly increase even these possibly
astronomical class sizes and attendant liability.
The FCRA’s numerous obligations and the high volume
nature of the background screening industry, combined
with the statute’s bounty of $1,000 per consumer and
attorney’s fees and punitive damages, result in technical,
no-harm violations of the law having the potential for
company-crushing liability. The facts on this appeal
illustrate how only 8,185 class members can lead to a jury
awarding $60 million in damages. The Ninth Circuit’s
reasoning is even more concerning when applied to claims
with significantly larger classes.
B. The Ninth Circuit’s Decision Likely Will Result
In A Marked Increase In FCRA Class Actions
Where Plaintiffs and Class Members Suffered
No Concrete Harm.
For the reasons discussed supra, the Ninth Circuit’s
decision has the potential to further open the floodgates
of “no injury” class actions – in the Ninth Circuit and
beyond. The plaintiff’s bar will be highly incentivized to

11
pour over every policy and procedure of amicus’ members
looking for even a possibly colorable technical violation
of the FCRA that could then be extrapolated into a class
claim with potentially thousands or millions putative class
members. A good case for the plaintiff’s bar is any case
with even the potential for a large class, regardless of
how unlikely the class is to prevail on the merits. Because
amicus’ members are part of an organization committed to
compliance with the FCRA and other applicable laws, most
members have written standardized procedures to ensure
compliance. It is not difficult for enterprising plaintiff’s
attorneys to discover such policies and then nitpick them
against the statute’s many procedural requirements with
the goal of pursuing a no-injury class action.
1.

Section 1681b(b)(1) of the FCRA, Which
Requires A Certification or Promise By
an Employer to a Consumer Reporting
Agency.

Section 1681b(b)(1) of the FCRA offers one stark
example of an acute procedural obligation under the
statute and the potential massive exposure that may face
a consumer reporting agency for an alleged violation.
15 U.S.C. § 1681b(b)(1). This section requires consumer
reporting agencies to obtain a certification from an
end-user of an employment-purposed consumer report,
namely, an employer that: (i) the employer complied with
the disclosure and authorization requirements in Section
1681b(b)(2); and (ii) that the employer will comply, if
necessary, with the adverse action notice requirements
of Section 1681b(b)(3), among other things. 15 U.S.C.
§ 1681b(b)(1)(A)(i-ii).

12
Section 1681b(b)(1) is a purely procedural requirement
between the consumer reporting agency and employer.
Consumers are never provided the certification, nor do
they generally even know when or how (or even that) it is
obtained. Neither the consumer reporting agency nor the
user has any obligation to disclose the certification to the
consumer. Consumers simply are not harmed whatsoever
by this section of the FCRA. Section 1681b(b)(1) violations
(real or alleged) are too far removed from the consumer to
either cause harm or be traceable to any Section 1681b(b)
(2)-related harm alleged by the consumer.
Until recently, Section 1681b(b)(1) was rarely litigated.
To the extent a consumer reporting agency did not obtain
any certification whatsoever, there arguably is a technical
violation of the statute. But even then, any potential
“injury” to the consumer could only occur through (i) the
employer end-user of a consumer report running afoul
of Section 1681b(b)(2) by procuring a consumer report
without first disclosing its intent to do so and obtaining
authorization from the consumer; or (ii) the end-user
failing to send the consumer a pre-adverse action notice
prior to taking adverse action. For Article III standing
purposes, those theoretical injuries would be proximately
caused only by the user of the consumer report, and not
be fairly traceable to the consumer reporting agency for
failing to get a certification. See Lujan v. Defenders of
Wildlife, 504 U.S. 555, 560 (1992) (Article III standing
requires a “causal connection between the injury and
the conduct complained of” that is “fairly traceable to
the challenged action of the defendant, and not the result
of the independent action of some third party not before
the court”) (alterations and citation omitted). For this
reason, most courts have held that Article III standing

13
does not exist for Section 1681b(b)(1) claims. See, e.g., Auer
v. TransUnion, LLC, et al., 902 F.3d 873, 879-80 (8th Cir.
2018) (dismissing § 1681b(b)(1) claim for lack of standing);
Frazier v. First Advantage Background Servs. Corp., No.
17-cv-30, 2018 WL 4568612, at **8-9 (E.D. Va. Sept. 24,
2018) (“Even assuming that Plaintiffs allege a sufficiently
concrete injury flowing from [ ] improper disclosure
forms, that injury is not traceable to a consumer reporting
agency’s alleged failure to obtain a proper certification
from its customers.”).
In recent years, there has been an increase in claims
brought under Section 1681b(b)(1). In Syed v. M-I, LLC,
No. 14-cv-742, 2014 WL 5426862, at **4-5 (E.D. Cal. Oct.
23, 2014), for example, the plaintiff sought to certify a
class of every consumer on whom the defendant consumer
reporting agency had prepared a consumer report over a
five-year period. Despite the plaintiff’s employer certifying
its compliance with Section 1681b(b)(2) in writing with the
defendant consumer reporting agency, the plaintiff argued
that a new certification was required each and every time
the employer ordered a new consumer report from the
consumer reporting agency. Id.
On the defendant’s motion to dismiss, the district
court agreed with the plaintiff and held that allegations
that the defendant obtained prospective certifications
from the users of its consumer reports were enough
to survive a motion to dismiss. 2014 WL 5426862, at
*5. The result was predictable. Faced with even the
potential for liability on each and every consumer report
it prepared over a five-year period, rather than litigate a
bet-the-business case with an uncertain outcome in the
Ninth Circuit, the defendant consumer reporting agency

14
essentially was forced into a seven-figure settlement on a
subset of the purported class. See Syed v. M-I, LLC, No.
14-cv-742, 2016 WL 310135 (E.D. Cal. Jan. 26, 2016) (final
order approving class settlement).
Following Syed, and despite Spokeo, Section 1681b(b)
(1) claims continue to be filed. Taken together with
the Ninth Circuit’s decision on this appeal, consumers
conceivably may argue that a prospective certification
(or other alleged technical noncompliance with the
certification requirement) violates Section 1681b(b)(1), that
consumers may satisfy Article III standing because of the
risk of some speculative and highly specious “privacy” or
“informational” injury through a noncompliant disclosure
by the third-party end-user under Section 1681b(b)(2),
and then seek to represent a class of everyone on whom
the consumer reporting agency has prepared a consumer
report over a five year period.
2.

Section 1681e(b) of the FCRA, Which
Requires a CRA to Have Reasonable
Procedures to Assure Maximum Possible
Accuracy.

One of the claims on appeal is asserted under
Section 1681e(b) of the FCRA. Section 1681e(b) requires
consumer reporting agencies to maintain reasonable
procedures to assure maximum possible accuracy when
reporting consumer information to third parties. 15 U.S.C.
§ 1681e(b). The essential elements of Section 1681e(b)
require a plaintiff to show an actual inaccuracy on his or
her consumer report, communication of such inaccurate
information to a third party, and that the consumer
reporting agency did not have reasonable procedures in

15
place. Sarver v. Experian Info. Sols., 390 F.3d 969, 971-72
(7th Cir. 2004)
The Ninth Circuit’s decision misapplied black-letter
law regarding the communication element in multiple
respects. First, as other amici ably explain, without
dissemination to a third party, there can be no “concrete
harm” to the consumer. In Spokeo, this Court recognized
that preventing the dissemination of inaccurate material
information was the precise type of potential harm
Congress sought to prevent through Section 1681e(b).
136 S.Ct. at 1549.
Second, without the communication of inaccurate
information to a third party, there is not even a
“consumer report” on which to base a claim. The FCRA
defines “consumer report” to mean a written, oral or
other communication of certain types of “information
by a consumer reporting agency . . . . which is used or
expected to be used or collected in whole or in part for
the purpose of serving as a factor in establishing the
consumer’s eligibility for” a permissible purpose under
the Act. 15 U.S.C. § 1681a(d)(1) (emphasis added). In
turn, a “consumer reporting agency” is defined as anyone
“regularly engage[d] . . . in the practice of assembling
or evaluating consumer credit information or other
information on consumers for the purpose of furnishing
consumer reports to third parties, and which uses any
means or facility of interstate commerce for the purpose
of preparing or furnishing consumer reports.” 15 U.S.C.
§ 1681a(f). Consistent with those definitions, in Spokeo,
this Court correctly assumed that before there is a
“consumer report” under the FCRA, there must first be
a communication, or a distribution of covered consumer

16
information to a third party. 136 S.Ct. 1540, 1545, 1550,
n.2. See also Wantz v. Experian Info. Sols., 386 F.3d 829,
834 (7th Cir. 2004) (“In short, where there is no evidence
of disclosure to a third party, the plaintiff cannot establish
the existence of a consumer report.”); Washington
v. CSC Credit Servs., Inc., 199 F.3d 263, 267 (5th Cir.
2000) (recognizing that the harm the FCRA “envisions
is improper disclosure, not the mere risk of improper
disclosure”).
The Ninth Circuit’s decision entirely disregards the
requirement that inaccurate information actually be
communicated or disseminated to state a viable Section
1681e(b) claim. Indeed, of the 8,185 class members at issue
on appeal, more than 77% of those individuals never had
their credit information communicated to a third party.
The Ninth Circuit’s decision allowed 6,332 individuals, at
a minimum, to recover damages where they suffered no
harm at all and could not have stated a claim. For FCRA
claims involving much higher putative class sizes, amicus’
members face potential liability to far greater numbers
of no-injury putative class members.
Taken to its logical conclusion, the Ninth Circuit
has expanded Section 1681e(b) liability to any piece
of consumer information maintained by a consumer
reporting agency, regardless of whether it ever sees the
light of day. This is an untenable reading of the statute. A
more narrow reading of the Ninth Circuit’s decision still is
that a plaintiff states a cognizable harm and claim merely
because he or she personally received allegedly inaccurate
information, even though it was never communicated to any
third party as required by the FCRA. That result, too, is
at odds with the text of the FCRA and case law. See Collins

17
v. Experian Info. Sols., Inc., 775 F.3d 1330, 1335 (11th Cir.
2015) (“A ‘consumer report’ requires communication to a
third party . . . .”); Wright v. Zabarkes, No. 07-cv-7913,
2008 WL 872296, at *2 (S.D.N.Y. April 2, 2008) (merely
“possessing information about a [consumer] . . . does
not fall within the statutory definition of ‘assembling or
evaluating consumer credit information’ for the purpose
of furnishing such information to others”).
Article III standing requires not only a concrete
harm, but one that is traceable back to an injury that a
court can redress. Lujan, 504 U.S. at 560. Thus, class
members cannot have standing when they do not even
have a claim under Section 1681e(b) upon which a court
could grant redress. Where there is no communication
to a third party, there is neither a harm nor a “consumer
report” to form a predicate for the claim.
* * *
In sum, the Ninth Circuit’s decision has the potential
for courts to further expand Article III standing to any
technical violation of the FCRA, regardless of whether
the plaintiff or class members suffered a constitutional
concrete harm. This appeal illustrates on a small scale how
future FCRA class actions will be used on a much larger
scale to force settlements on behalf of no-injury classes.
Amicus respectfully submits that this Court should
reaffirm Spokeo, and provide an unambiguous concrete
harm requirement to prevent current and future abuses
of the class action device.

18
II. The Ninth Circuit’s Decision Exacerbates Ongoing
And Unjustified Harm For Businesses and
Consumers.
The Ninth Circuit’s decision creates further incentive
for plaintiffs to both (i) take garden-variety single-plaintiff
cases and plead them as class actions where most of the
purported class suffered no injury; or (ii) rely on one
of the FCRA’s technical requirements to plead a class
claim where no one—not even the class representative—
suffered any injury whatsoever. In both situations, the
plaintiff’s bar stand to leverage the threat of significant
costs of defense and a potential “bet the company”
judgment into an early settlement. This ongoing class
action threat that hangs over the industry adversely
affects amicus’ members, other businesses across the
country, and consumers themselves.
Amicus’ members are in the information business.
To that end, they provide invaluable services to the
economy as a whole, helping businesses screen potential
employees, insurance companies underwrite insurance,
and helping consumers obtain lines of credit and efficient
employment and insurance. Their efforts, for example,
help an employer or housing provider “ensure the
security of its facilities” and employ “a competent, reliable
workforce.” NASA v. Nelson, 562 U.S. 134, 150 (2011); see
also EEOC v. Freeman, 961 F. Supp. 2d 783, 785 (D. Md.
2013) (recognizing that “conducting a . . . background
check on a potential employee is a rational and legitimate
component of a reasonable hiring process”). See also U.S.
Chamber of Commerce, A Guide to Choosing the Best
Background Check Services (Feb. 25, 2019) (recognizing
that background screening “improve[s] your chances of

19
making wise hiring decisions” and “improve workplace
safety”); 4 Consumer Financial Protection Bureau,
Market Snapshot: Background Screening Reports
(October 2019) (explaining how employers use background
screening reports to efficiently evaluate prospective and
current employees). 5
This Court’s May 2016 decision in Spokeo should have
curbed the rise in “no injury” actions under the FCRA.
Instead, with the help of the Ninth Circuit’s precedent and
instant decision, FCRA actions continue to be filed in the
thousands every year. Indeed, from 2016 to 2020, FCRA
claimants grew from 3,835 in 2016 to 5,223 in 2020. As
explained supra, this high number is the result of both
the nature of the FCRA and the failure of lower courts
to rigorously apply the concrete harm requirement for
Article III standing.
The ongoing threat of “no injury” class actions has
an adverse impact on the background screening industry,
businesses that rely on the industry, consumers, and
the economy as a whole. The Ninth Circuit’s decision
further raises the specter of amicus’ members having to
defend against class actions based on nothing more than
technical, no-harm violations of the law, filed by plaintiff’s
attorneys who are the only true beneficiaries. See, e.g.,
Berther v. TSYS Total Debt Mgt., No. 06-cv-293, 2007
WL 1795472 (E.D. Wis. June 19, 2007) (recognizing that
4. Available at https://www.uschamber.com/co/run/humanresources/background-check-service-guide
5 . Ava i l able at ht t p s: //f i le s .con su mer f i n a nc e .gov/f /
documents/201909_cfpb_market-snapshot-background-screening_
report.pdf

20
consumer protection class actions brought under similar
statutes “appear to be much more about attorney’s fees
than the prosecution of consumer rights” and it is “simply
more cost effective to settle, even if the merit of such a case
is debatable”). Moreover, amicus’ members often have no
early procedural devices to challenge the appropriateness
of a ruinous class-based judgment.
As a result, amicus’ members often are left with a
Hobson’s choice of (i) expending significant legal fees
to defend against a no-injury class action (all the while
having the prospect of a multi-million dollar judgment in
the background) or; (ii) to settle a technical violation early
and on an in terrorem basis.
As discussed above, several sections of the FCRA
have the potential to be abused by “no injury” class
actions. Section 1681b(b)(1) is an illustrative example of
a technical requirement incapable of resulting in direct
consumer harm but with the potential to impose massive
liability on consumer reporting agencies. For example,
a consumer reporting agency that prepares 1 million
reports in a year would face statutory damages between
$100 million and $1 billion – for just one year of consumer
reports. The FCRA, however, has a five-year statute of
limitations where the consumer does not have constructive
knowledge of the alleged violation. 15 U.S.C. § 1681p(2).
Because the consumer is never aware of the certification
between the consumer reporting agency and end-user
of the report, consumers arguably are not on notice of a
potential Section 1681b(b)(1) claim, meaning a five-year
limitations period could apply. Under the example above,
if the same consumer reporting agency prepared 5 million
reports over 5 years, its potential liability increases to

21
between $500 million and $5 billion. That staggering
potential liability does not even account for the cost of
defense, attorney’s fees, and potential punitive damages
– which is why the majority of FCRA class actions settle.
The issue on appeal here presents a further example
of the expansive liability associated with the Ninth
Circuit’s interpretation of Section 1681e(b). The Ninth
Circuit’s decision is based on the erroneous conclusion
that Section 1681e(b) imposes liability solely based on
information maintained by a consumer reporting agency,
or shared with the consumer to whom the information
belongs. As discussed supra, without communication
of such information to a third party, Section 1681e(b)
does not apply, period. If plaintiffs are now allowed to
pursue Section 1681e(b) claims without a third party ever
receiving a report, then consumer reporting agencies
could face claims by merely storing information they
used to prepare a report (i.e, a criminal record that was
not included on a consumer report because, for example,
there were not enough personal identifiers to confirm it
was the person) and by responding to consumer requests
for copies of their “file”6 under Section 1681g of the FCRA.
Amicus’ members maintain a variety of information in
connection with preparation of a specific consumer report,
much of which never is distributed to third parties because
it is not reportable under other sections of the FCRA or
because, over time, it has become unreportable. Such
6. “File” as defined in the FCRA “means all of the information
on that consumer recorded and retained by a consumer reporting
agency regardless of how the information is stored.” 15 U.S.C.
§ 1681a(g).

22
information could include: (i) pointer data that shows the
source where a criminal or other record could be located;
(ii) older information about the consumer that could not
be reported based on Section 1681c (15 U.S.C. § 1681c) or
state reporting restrictions; (iii) consumer reports that
were accurate when distributed to a third party, but where
some information on the reports has been updated, e.g.,
through an expungement or amended charge or through
the dispute process set forth in Section 1681i of the FCRA;
(iv) consumer reports that included record information
that was within temporal reporting limitations at the time
of the report, but has since become obsolete under Section
1681c of the FCRA; or (v) information that was thought to
potentially be about the consumer, but where a consumer
reporting agency did not include such information in
any consumer report because it could not match the
information to the consumer based on its procedures
to assure maximum possible accuracy. In addition to
the ongoing threat of no-injury class actions, the Ninth
Circuit’s decision raises a new cost to the industry by
potentially forcing members to defend Section 1681e(b)
claims where they have not even communicated consumer
information to a third party.
These realities turn what is supposed to be a
“reasonable,” 15 U.S.C. § 1681e(b), system of consumer
reporting on its head. In many no-injury class actions,
statutory damages will far exceed the net worth of even
the largest of amicus’ members. The result is forced
settlements, windfalls for plaintiff’s attorneys bringing
no-injury cases, and costs passed on to the customer and
to the consumer.

23
CONCLUSION
Amicus respectfully submits that class members
who do not suffer actual injury do not have standing to
recover money damages in class actions. In this appeal,
that includes, at a minimum, 6,332 people – the vast
majority of the class. This ongoing problem continues
to raise costs in the background screening industry.
This appeal presents an opportunity to close the federal
courthouse doors to plaintiff’s lawyers who would turn
the FCRA’s technical requirements into a cudgel to use
against amicus’ members on behalf of class members who
do not suffer any concrete harm from the alleged violation
at issue. Accordingly, the judgment of the Ninth Circuit
should be reversed.
Respectfully submitted,
Pamela Q. Devata
Counsel of Record
John W. Drury
Seyfarth Shaw LLP
233 South Wacker Drive,
Suite 8000
Chicago, Illinois 60606
(312) 460-5000
pdevata@seyfarth.com
Counsel for Amicus Curiae
Professional Background
Screening Association

